                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
April 1, 2008 - September 30, 2008
      Fiscal Year 2008 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                    Table Of Contents


A Message From Inspector General Gerald Walpin.............................................. 1

Audit Section............................................................................................................ 5
      Audit Results ................................................................................................................................ 7
      Significant Audit Activity ............................................................................................................ 8
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 9

Investigations Section........................................................................................... 11
      Investigative Results ................................................................................................................. 13
      Significant Cases And Activity ................................................................................................. 13

Review Of Legislation And Regulations .............................................................. 17
      Proposed Corporation Reauthorization Act............................................................................ 19
      Rulemaking................................................................................................................................. 19

Statistical And Summary Tables .......................................................................... 21
      I.      Inspector General Act Reporting Requirements........................................................... 23
      II.     Audit List ........................................................................................................................... 24
      III.    Reports With Questioned Costs ..................................................................................... 25
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 26
      V.      Summary Of Audits With Overdue Management Decisions ........................................ 27
      VI.     Reports Described In Prior Semiannual Reports Without Final Action...................... 27
      VII     Proposed Management Decisions Under OIG Review ................................................. 28

Fiscal Year 2008 Performance Information ......................................................... 29


                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of Fiscal Year 2008. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                 Inspector General’s Message


          A Message From Inspector General
                             Gerald Walpin
October 31, 2008

I am pleased to share with you our Semiannual Report to Congress and
provide you with insights into the considerable achievements of the
Office of Inspector General (“OIG”) for the period April 1 to September
30, 2008. During this reporting period, the OIG continued its proactive
oversight of the Corporation for National and Community Service
(“Corporation”) and its programs.

Our Audit Section issued 10 reports which resulted in $148,000 in
questioned costs. Those reports also identified $868,000 of funds that
could be put to better use. Almost all of that amount relates to
payments made from the National Service Trust for education awards
which were not in fact earned, and, thus, should have been put to better
use; their invalidity is a corollary to living allowances, which are paid
from grant funds, that were questioned because they were found to be
paid in violation of law and regulation. Our reports further made
numerous recommendations for improvement in program and
Corporation operations and policies. Our Investigations Section opened
24 new cases and closed 26 actions, resulting in the recovery of more
than $424,000 in taxpayer dollars and the potential recovery of more
than $1.9 million for reinvestment in national service.

Our auditors and investigators also conducted two large-scale actions as part of our overall effort to
detect and prevent fraud, waste and abuse.

Acting on a request from Volunteer California and based on media reports, we launched an
investigation of the AmeriCorps program operated by St. HOPE Academy, a nonprofit Corporation
grantee based in Sacramento, CA. Our ongoing investigation found substantial evidence of misuse
of AmeriCorps members and grant funds. Under the grant, members were to have served as student
tutors. Instead, the members were detoured to perform as personal assistants to Kevin Johnson, St.
HOPE’s founder and former president, as menial workers for the Academy, and to engage in political
campaigning to the benefit of St. HOPE’s charter school.

As a result of our findings and recommendation, Corporation officials on September 24, 2008,
suspended St. HOPE Academy, Johnson, and Dana Gonzales, former supervisor of the nonprofit’s
AmeriCorps program, from participation in Federal procurement and non-procurement programs.

During this period we were also in receipt of the Corporation’s Proposed Management Decision
(PMD) on our 2007 audit (Report 07-21) of United States Veterans Initiative (USVI), an AmeriCorps
National Direct grantee based in Inglewood, CA.

I am pleased to report that the Corporation, in its PMD, agreed with the OIG’s assessment that the
Schedule of Award Costs did not fairly present USVI’s claimed costs for the audit period. It
disallowed $417,301 of Federal share, $543,939 of match, and $198,116 of education awards,
representing approximately 81 percent of the costs questioned by our audit. Due to the serious
issues raised by the OIG, including widespread misuse of AmeriCorps members and USVI’s less than
arm’s length dealings with Cantwell-Anderson Inc., a for-profit development firm, the Corporation has
deferred action on USVI’s continuation grant and has not awarded it additional AmeriCorps funding.



April 1, 2008 – September 30, 2008                                                              1
Inspector General’s Message

 What is even more crucial is that this audit was of only a single, three-year grant out of the numerous
 grants to made to USVI, over more than a decade, by the Corporation and three other Federal grant
 agencies. These grants totaled more than $80 million in Federal funds. The defects we found are
 undoubtedly also present in all of the other grants, and we are continuing our investigation.

 Our auditors and investigators are further examining USVI’s finances. But our work to date has
 resulted in a make-over of USVI. The control persons primarily responsible for the misuse of funds
 have left and an almost totally new Board of Directors has been chosen. The OIG has engaged with
 USVI’s new Board in its effort to improve operations and oversight of Federal funding.

 The Corporation’s action on the USVI audit was part of a markedly improved audit resolution process.
 During this reporting period, I expressed my concerns to Corporation management and the Board of
 Directors on the pace of this crucial process, which had resulted in a large number of overdue
 management decisions. I’m pleased to report that Corporation management responded by
 completely eliminating the backlog, thereby ensuring the more timely recovery of questioned or
 misappropriated grant funds.

 As part of our cooperative effort with Corporation management to improve operations and maximize
 the impact of its service programs, we assisted in the formulation and adoption of a new Anti-Fraud
 Policy. The lack of such a policy was identified as a potential problem in the early stages of the OIG’s
 audit of the Corporation’s FY 2008 Financial Statements. Epitomizing the cooperation between the
 OIG and the Corporation, our staff promptly formulated a draft policy which, after extensive review,
 became the framework of a policy that the OIG and Corporation management quickly approved. The
 policy, which includes a fraud awareness training program for all employees, was formally adopted in
 early September.

 The OIG was also actively engaged with Corporation management on the question of signed member
 contracts. In the course of our audits, we found that many grantees had allowed individuals to begin
 their AmeriCorps service and accumulate benefits, before they had signed required member
 contracts that clearly outlined their duties, rights and responsibilities. We raised concerns over
 potential liability if unsigned members were injured or were involved in inappropriate or criminal
 activities. We are continuing our discussions with Corporation management on strengthening
 regulations and stressing the importance of signed member contracts to grantees before service
 begins.

 To make more effective use of our own limited human capital, during this period we began
 development and implementation of a new Case Management System for our Investigations Section.
 This Internet-based system, replacing one with severely limited capabilities, will make it easier and
 quicker for our agents to retrieve, compile and track all data related to their investigations. This
 project is the first phase of an information technology initiative that will also include an improved data
 system for the Audit Section.

 Speaking of human capital, the OIG had to deal with a significant brain drain during this reporting
 period. First, we lost the services of Linda Wallis, Assistant Inspector General for Support (“AIGS”),
 who retired after a distinguished Federal career. That was quickly followed by the departure of Carol
 Bates, Assistant Inspector General for Audit (“AIGA”), who was named Architect of the Capitol
 Inspector General. We were indeed fortunate to find able successors within our own ranks as
 veteran investigator and technology expert Kenneth Bach was appointed AIGS and seasoned
 Federal Audit Manager Stuart Axenfeld was promoted to AIGA.

 I am extremely proud at the level and quality of the effort my staff put forth despite serious and
 ongoing budget challenges. During Fiscal Year (FY) 2008, the OIG had to bear the brunt of a
 significant budget reduction, from the $6.485 million in funding available in FY 2007 to $6.128 million.
 We also faced the fiscal challenge of the loss of two-year money, which the OIG had carefully
 budgeted in past years to meet audit and investigative requirements that often spanned fiscal years.




 2                                                            April 1, 2008 – September 30, 2008
                                                  Inspector General's Message

We have responded to this challenge by more carefully focusing our audit work and conducting more
staff-produced audits. But the shortfall has hampered our oversight efforts by reducing our ability to
perform the random audits of grantees that are mandated by Congress. I believe these random
audits provide real value to the Corporation and the taxpayers who support it. They also reinforce an
awareness of accountability - and consequences for wrongdoing - among all Corporation grantees
and employees, and thus proactively deter wrongdoing.

The budget impact on our Investigations Section is just as problematic. Our only real recourse in the
face of the shortfall is to curtail investigative travel. There is no substitute for agent fieldwork, as
evidenced by our successes in the aforementioned major California cases. The inability to respond to
allegations concerning grantees, who are located in all 50 states and U.S. Territories, will only delay
the cessation of abuses and the administration of justice upon those who have betrayed the public
trust.

Our present reduced circumstances will continue until at least March 6, 2009, under the Continuing
Resolution which went into effect at the beginning of FY 2009. I intend to seek and ask Congress'
help in obtaining added resources so that the OIG can continue to achieve its important mission.




April 1, 2008 - September 30, 2008                                                                3
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action and/or
                   information.




April 1, 2008 – September 30, 2008                                      5
                                                                              Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued 10 reports that questioned a total of more
 than $148,000 in grantee claimed costs and recommended that more than $868,000 in funds be put
 to better use. There were 15 audits in process at the end of this reporting period.

 Also during this period, the OIG met with Corporation management and the Board of Directors to air
 its concerns over the pace of the audit resolution process, which had resulted in a significant number
 of overdue management decisions and a delay in the recovery of questioned and unallowed costs
 identified by our reports. The Corporation responded by stepping up its reviews of our findings and
 issuing its management decisions. As a result, as of the end of this period, we have no overdue
 management decisions to report (See Chart V, Page 27).

 The Audit Section, which began this period with an Assistant Inspector General for Audit and eight
 auditors, lost two members, including the Assistant Inspector General for Audit, Carol Bates, who was
 appointed Inspector General to The Architect of the Capitol. Reports issued this period included

 Agreed-Upon Procedures of Corporation for National and Community Service Grant Awarded to the
 Catholic Network of Volunteer Service,

 Agreed-Upon Procedures of Corporation for National and Community Service Education Award
 Grants to Boys and Girls Clubs of America,

 Review of Bank Street College of Education's Justification for Compelling Personal Circumstances of
 an AmeriCorps Member,

 Agreed-Upon Procedures for Corporation for National and Community Service Grants Awarded to the
 Local Initiative Support Corporation,

 OIG Study of Corporation for National and Community Service's Federal Assistance Monitoring Tools,

 Agreed-Upon Procedures Corporation for National And Community Service Grants Awarded To
 Equal Justice Works,

 Agreed-Upon Procedures of Corporation for National and Community Service Education Award
 Program Grants to Regis University-Colorado Campus Compact,

 Agreed-Upon Procedures of Corporation for National and Community Service Education Award
 Program Grants to Mississippi Department of Education,

 Agreed-Upon Procedures of Corporation for National and Community Service Grants Awarded to the
 Arab Community Center for Economic and Social Services, and

 Status of the Corporation's Implementation of Homeland Security Presidential Directive/HSPD-12

 The focus of the reports issued this period were agreed-upon procedures of the Corporation’s
 National Direct Grantees. During the period, we initiated four agreed-upon procedure engagements
 of AmeriCorps Education Award Program (EAP) grantees and completed three. EAP grants are
 fixed-amount awards. In determining the amount of these awards, the Corporation considers the
 number of “full-time equivalents” (FTEs) that the grantee agrees to enroll. One FTE equals a full-time
 education award for which a minimum of 1,700 hours of service must be completed. The Corporation
 sets a limit on the grant support per FTE, an amount that has varied over the years due to program
 funding levels. Because EAP awards are based on fixed amounts rather than incurred costs,
 grantees are not required to document their expenditures or submit Financial Status Reports.
 However, grantees must still comply with the law, regulations and grant provisions.



 April 1, 2008 – September 30, 2008                                                              7
Audit Section

 The Corporation awards AmeriCorps grants to State commissions that issue subgrants to local
 organizations to support their AmeriCorps programs. Another category of recipients is National Direct
 Grantees, which either subgrant funds to organizations to run programs or operate AmeriCorps
 programs in more than one state. AmeriCorps members serve nonprofits, public agencies and faith-
 based and other community organizations, to meet critical needs. Upon completion of their term of
 service, members receive an education award to help finance their higher education or to pay off
 existing student loans.

 Key and recurring audit findings during this period included:

 No documentation that criminal background checks were conducted;
 Members recorded service hours before contracts were signed;
 Timesheet weaknesses in reporting and certifying member service hours; and
 Lack of evidence that end-of-term performance evaluations were performed.

 The questioned costs identified by our audits resulted, for the most part, from a lack of grantee
 compliance with regulations and grant provisions.


Significant Audit Activity
 Resolution of Audit of United States Veterans Initiative (USVI)

 The Corporation issued its proposed management decision in response to Audit Report 07-21 on the
 United States Veterans Initiative (USVI). The Corporation agreed with the auditors’ assessment that
 the Schedule of Award Costs did not fairly present the claimed costs for the audit period. The
 Corporation disallowed $417,301 of Federal share, $543,939 of match, and $198,116 of education
 awards, representing approximately 81 percent of the questioned costs and funds that could be put to
 better use identified by the auditors. Due to the serious issues raised in the audit report, the
 Corporation deferred action on USVI’s continuation grant and has not awarded additional AmeriCorps
 National Direct funding to this entity.

 Earth Conservation Corps (ECC)

 The Corporation issued its management decision in response to Audit Report 08-08 on DC Serve, the
 commission for Washington, DC. Our audit found numerous compliance issues and questioned costs
 at ECC, a DC Serve subgrantee. The management decision concluded that the Corporation could
 not rely on ECC’s time logs to confirm member service and that the program improperly certified
 member exit forms and eligibility for education awards. The Corporation disallowed $43,327 of
 Federal share and $42,525 of education awards, representing approximately 70 percent of the
 questioned costs and funds that could put to better use identified by the auditors.

 In view of the major recordkeeping and cost-charging violations that we encountered, the OIG
 recommended the debarment of Mr. Brandon Swails and the Corporation has followed that
 recommendation.

 Recording Service Hours Prior to Signing a Member Contract

 It is the OIG’s opinion that AmeriCorps applicants become members only after signing a contract.
 Therefore, service hours recorded before signing are not eligible to count toward earning an
 education award or to qualify for a member living allowance. AmeriCorps grant provisions that were
 in effect from September 1994 to May 2008 that defined an AmeriCorps member as an individual
 “who is enrolled in an approved national service position . . .” and that defined enrollment to entail,
 among other things, the “sign[ing of] a member contract,” support the OIG’s position. The
 Corporation’s own documents thus demonstrated that an applicant does not become an AmeriCorps
 member until enrollment is complete, including signing a member contract.



 8                                                           April 1, 2008 – September 30, 2008
                                                                                Audit Section

 Our audits continue to find that grantees are allowing a large number of applicants to record service
 hours before becoming AmeriCorps members by having signed a contract. We performed an
 analysis of the 30 grantee and subgrantee locations audited in FY 2008 and found that approximately
 24 percent of the 3,000 members tested performed service hours prior to signing their contracts.

 Although the Corporation continues to disagree with the OIG position, stating that legitimate hours
 served before the members sign contracts are valid and should be counted toward the total number
 of hours required to earn an education award, it agrees that this issue is a serious compliance finding.
 The Corporation responded to our analysis by agreeing to provide new training and technical
 assistance to grantees and subgrantees, and to highlight the finding in documents available on its
 Internet website and included in the Corporation’s monitoring tool used for its site visits. While we do
 not believe the Corporation’s actions adequately address the issue -- particularly as it imposes no
 penalty for failure to obtain a signed contract -- we do not intend to continue to disallow the costs
 associated with this defect, given the Corporation’s fixed position. However, we will continue to
 review member contracts as part of our audits and assess the rate of noncompliance.

 Anti-Fraud Policy Adopted

 In the course of the OIG’s audit of the Corporation’s FY 2008 Financial Statements, our auditors
 noted that the Corporation’s lack of an anti-fraud policy could result in a potential finding. The OIG
 communicated this concern to Corporation management, noting that most Federal agencies have
 adopted formal Anti-Fraud Policies that cover fraud awareness, internal controls and ethics
 regulations, as well as provisions for employee training programs in those areas.

 Drawing from a number of Federal agency sources, the OIG staff formulated a draft Anti-Fraud
 Policy, which was then extensively reviewed and, with non-substantive modifications, approved by
 the OIG and Corporation management.

 The Anti-Fraud Policy was formally adopted in early September 2008 as Corporation Policy CEO-08-
 001.   Implementation, including training programs for employees, will be overseen by the
 Corporation’s existing Senior Assessment Team, on which the OIG serves as an observer.

 Resolution of Agreed-Upon Procedures on Montana Office of Community Service

 The Corporation issued its Proposed Management Decision in response to Audit Report 08-15 issued
 on the Montana Office of Community Service. The Corporation disallowed $143,659 of Federal share
 and education awards, representing approximately 70 percent of the total questioned costs. The
 Corporation also concurred with 25 of the report’s 27 compliance recommendations and has begun
 taking corrective actions.


Proposed Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the Corporation’s Proposed Management Decisions (PMDs) for
 the following engagements:

 07-18, Office of Inspector General (OIG) Agreed-Upon Procedures of Grants Awarded to the OneStar
 (Texas) National Service Commission

 08-03, Agreed-Upon Procedures of Grants Awarded to Georgia Commission for Service and
 Volunteerism

 08-08, Agreed-Upon Procedures of Grants Awarded to ServeDC

 08-10, Agreed-Upon Procedures of Grants Awarded to the North Dakota Workforce Development
 Council - State Commission for Community Volunteerism


 April 1, 2008 – September 30, 2008                                                                9
Audit Section

 08-13, Agreed-Upon Procedures of Grants Awarded to the West Virginia Commission for National
 and Community Service

 Significant disagreements involved the following issues: member contracts (discussed above), the
 creation of potential debts, and end-of-term member evaluation requirements.

 Creation of Potential Debt: The Corporation disallowed the education awards identified and
 questioned by the OIG; however, it established a potential debt for portions of the education awards
 not yet used by the AmeriCorps members. The OIG concurs with the Corporation that the members
 involved, who were not complicit in the error but, in good faith, believed they had completed the
 program, should be able to use the full education awards. The OIG does not concur with establishing
 a potential debt for three reasons. First, there is no mechanism in place to track when or if the
 member accesses the education awards. Second, even if that were practical, the Corporation should
 not bear the burden of tracking open items which clearly result from grantee errors. Third, this
 ignores that, as long as the debt is not collected, the Corporation is precluded from using these funds
 for an earned education award because the allocable share of the Trust fund used to finance
 education awards remains frozen. Therefore, the OIG contends that the disallowed education awards
 should immediately be charged to the grantee, freeing up the National Service Trust funds to permit
 use for an earned education award, as Congress intended. The grantee should also be notified that it
 is being held liable for this amount, subject to the grantee’s right to obtain reimbursement if, after the
 period of time has expired for the member to use the award (generally within seven years of service
 completion), the member has not used his or her award.

 End-of-Term Evaluation: The OIG questioned the costs associated with an AmeriCorps member’s
 second term of service, citing the fact that the member was ineligible due to the lack of a mandatory
 evaluation that was to have been completed by the grantee at the end of the first term served. The
 Corporation disagreed, stating that the member exit form submitted to the Corporation suffices as
 formal notification that the member successfully completed the first term. But, the exit form contains
 no evaluation; it is nothing more than recognition that the member’s service is concluded, whether
 well or poorly done. Also, the Corporation’s position is contrary to Corporation regulations that
 require an end-of-term evaluation, and for using this evaluation to assess the performance of
 members who are applying for a second term of service. The OIG believes that evidence of the mere
 completion of the first term is not necessarily evidence that the member’s actual performance is
 deserving of approval for a second term.




 10                                                           April 1, 2008 – September 30, 2008
                                     Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of,
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




April 1, 2008 – September 30, 2008                                      11
                                                                Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 24 new cases and closed 26
 cases, including 17 matters with significant findings. Our efforts resulted in the recovery of more than
 $424,204 in taxpayer funds and the potential recovery of more than $1.9 million from persons and
 programs found to have engaged in fraud, waste and abuse of Corporation resources.

 Our investigations also resulted in the successful criminal prosecutions of six persons, the settlement
 of one civil action, and the pending adjudication of 11 matters. Based on information developed
 through our investigations and successful prosecutions, Corporation management debarred one
 person from participating in Federal procurement and non-procurement programs for a period of one
 year. Based on the results of an ongoing investigation, the Corporation also suspended one grantee
 and two of its principals. Two debarment actions are pending.

 In an effort to prevent future instances of fraud, waste and abuse, the Investigations Section made
 several recommendations to Corporation management that are designed to improve program
 operations and oversight.

 Proactive prevention is also the goal of our Fraud Awareness Program. OIG investigators regularly
 make multimedia training presentations to Corporation employees, program officials and members.
 In addition, investigators conduct unannounced visits to program sites during their official travel.
 These visits assist Corporation management in determining if grantees are adhering to goals and
 objectives and give grantees the opportunity to give feedback on how effectively Corporation
 management is supporting their programs.

 Consisting of an Assistant Inspector General for Investigations, six agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include hundreds of grantees and subgrantees in
 all 50 states and U.S. territories. We were assisted in our work by 42 calls, letters and e-mails to our
 Fraud Hotline and by referrals from Corporation managers, employees and program participants.


Significant Cases And Activity
 Lack of Program Oversight by Grantee Boards of Directors, Oversight Committees and City
 Administrators

 The OIG has identified a pattern of failure on the part of members of grantee boards of directors, local
 government administrators and program executive directors to exercise their responsibilities and
 ensure that the proper checks and balances are in place to protect Federal program funds. In many
 cases, oversight agencies claimed that they merely trusted the individual(s) involved in fraud, waste
 and abuse to properly manage their program(s) and safeguard Federal funds. In this environment, a
 number of program directors were able to embezzle funds, misuse program members, and redirect
 Federal funds to support non-Federal activities and other grantee expenses.

 For example, a VISTA project director fraudulently drew down his VISTA project director’s salary at
 the full authorized rate of 75 percent of his salary while knowing he was devoting only 30 percent of
 his time directly to the VISTA program. This allowed the director to receive $64,615 in Federal
 program funds to which he was not entitled.

 Also, a Texas State grantee expended 98 percent of its grant funding three months prior to the end of
 the grant year. Our investigation showed that the grantee improperly drew down more than $200,000
 of its members’ living allowances in excess of its expenditures and misapplied the funds. If the
 grantee’s oversight committee had performed its duties, including being engaged in the grantee’s
 financial transactions and ensuring that proper checks and balances were in place, it would have


 April 1, 2008 – September 30, 2008                                                               13
Investigations Section

 known that the grantee officials had not met the program’s member enrollment goal and had misused
 the grant funds. It then could have taken action to halt these abuses.

 In both of these cases, criminal acts could have been prevented if oversight boards and agencies had
 conducted periodic reviews of their programs to ensure that proper checks and balances were in
 place and being followed.

 Misuse of Program Participants (Displacement)

 We continued to find instances in which program officials misused members and other program
 participants, including the use of members to supplant employees, thereby supplementing the
 grantee’s staff salaries with taxpayer-provided program funds. We also identified fraudulent
 enrollments of program employees as AmeriCorps/VISTA members, who were then certified by
 grantee officials for living allowances and education awards to which they were not entitled.

 The OIG conducted reviews at a National Direct grantee and five of its subgrantee sites to determine
 if the organizations were operating within the AmeriCorps grant provisions. We found that
 AmeriCorps members assigned to this health program for low-income persons were not serving in
 accordance with AmeriCorps grant provisions, in violation of the Corporation’s non-displacement rule,
 45 C.F.R. § 2540.100(f). The AmeriCorps members, who were supposed to provide outreach and
 health awareness to patients, instead were assigned to tasks that directly benefited the subgrantees,
 substituting for temporary or full-time employees who would otherwise have to be hired. The
 members (employees) were assigned to serve the subgrantees as medical, dental, pharmacy and
 administrative assistants, while others performed clerical duties and filled in while staff employees
 were absent or on maternity leave. These actions resulted in a loss of more than $155,000 in
 Corporation grant funds and $33,000 in education awards. Corporation management is working with
 the National Direct grantee to recoup the disallowed costs. The grantee, which agreed with our
 findings, immediately took steps to bring its subgrantees into line with the grant provisions.

 Another investigation of a Michigan State Commission grantee disclosed that AmeriCorps members
 were serving in staff positions at a public school district. The OIG investigation showed that the
 AmeriCorps members, who were to have served as tutors in the schools, were actually doing clerical
 duties; and served as recess, lunch, and bus monitors. Other AmeriCorps members, who served at a
 daycare center, also provided direct service as daycare providers by being assigned to positions that
 should have been filled by paid employees. The estimated loss to the Corporation is more than
 $300,000.

 Fraudulent / Unallowable Service Hours

 A California grantee was awarded an AmeriCorps grant to provide tutoring services and community
 redevelopment. Our ongoing investigation disclosed that the grantee improperly used some if its
 AmeriCorps members, requiring them to perform personal services for the grantee’s president (i.e.
 personal assistant/chauffeur services) and to participate in a physically taxing residential boot camp
 program. In addition, some members were assigned to participate in political campaigning during a
 local school board election. The investigation also showed that members improperly received credit
 for AmeriCorps service when they were, in fact, engaged in assignments outside the scope of the
 grant. These disallowed activities included working as school janitors, soliciting enrollment for the
 grantee’s charter school and traveling away from their California service site to New York City to
 assist in the set up of another charter school operated by the grantee. The estimated loss is more
 than $800,000.

 Contract Employee Violations

 An OIG investigation disclosed that a Corporation contactor employee misused the Corporation’s
 Federal Express (“FedEx”) system for his personal use. The individual made unauthorized shipments
 of items to friends and family, including excess Corporation computer equipment that was pending
 disposal. The individual also admitted to using the Corporation’s FedEx account to ship personal

 14                                                        April 1, 2008 – September 30, 2008
                                                                             Investigations Section

clothing to his residence. The contractor terminated the employee and reimbursed the Corporation
for the shipping costs. The OIG recovered the computer equipment. As a result of this investigation,
Corporation management has implemented controls to monitor FedEx shipments by contractor
employees and enhance its accountability for property pending disposition and/or disposal.




                                               Summary Of Cases
Opened and Closed
  Cases O pen at Beginning of Reporting Period                                                      34
  New Cases Opened                                                                                  24
  Cases Closed this Period W ith Significant Findings                                               17
  Cases Closed this Period W ith No Significant Findings                                            9
  T otal Cases Closed                                                                               26
  Cases O pen at End of Reporting Period                                                            32
Referred
  Cases Referred for Prosecution                                                                    4
  Cases Accepted for Prosecution*                                                                   0
  Cases Declined for Prosecution*                                                                   2
  Cases Pending Prosecutorial Review                                                                2
  Cases Pending Adjudication                                                                        11
Recommendations to Managem ent
  Investigative Recommendations Referred to M anagement                                             37
  Investigative Recommendations Pending M anagement Action this Reporting Period                    11
  Investigative Recommendations Pending M anagement Action from Previous Reporting
                                                                                                    8
  Periods

*This includes cases referred for prosecution during the previous reporting period.




April 1, 2008 – September 30, 2008                                                             15
                             Review Of Legislation And
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The OIG reviews legislation
                   and regulations to determine their impact on the
                   economy and efficiency of the Corporation’s
                   administration of its programs and operations. It also
                   reviews and makes recommendations on the impact
                   that legislation and regulations may have on efforts to
                   prevent and detect fraud, waste and abuse in
                   Corporation programs and operations. The OIG draws
                   on its experience in audits and investigations as the
                   basis for its recommendations.




April 1, 2008 – September 30, 2008                                     17
                                Review Of Legislation And Regulations


Proposed Corporation Reauthorization Act
 In the prior reporting period, the OIG submitted comments to Congress concerning certain sections of
 the Corporation’s proposed reauthorization bill, titled the Generations Invigorating Volunteerism and
 Education Act, or GIVE Act, which was introduced in the House of Representatives in June 2007.
 The OIG, based on its analysis of the legislation, identified several weaknesses and communicated
 its concerns to the applicable House Committee members and their staffs. We also suggested
 several amendments that the OIG believes would strengthen its ability to deter fraud, waste and
 abuse of taxpayer dollars invested in Corporation programs.

 On March 6, 2008, the House considered and voted on the GIVE Act and, although a strong majority
 supported passage of the bill, the measure failed based on the prevailing House procedural rule
 which required a two-thirds affirmative vote for passage. During this reporting period, Congress took
 no further action on the measure. We will continue monitoring the reauthorization issue, and report
 on any subsequent Congressional action on this bill in this session, or action on any subsequent
 reauthorization bill introduced in the 111th Congress.


Rulemaking
 On September 17, 2008, the Corporation’s proposed amendments to the current AmeriCorps
 regulations were published in the Federal Register and became effective. Before publication, the OIG
 internally reviewed and provided comments to the Corporation and the Office of Management and
 Budget on those particular amendments that, in the OIG’s view, would weaken an OIG auditor’s
 ability to identify lack of compliance with Corporation rules. We also called attention to several
 matters that appeared to conflict with current law. The final rule meets all of our concerns but one,
 that being the way in which the rule defines the release of an AmeriCorps member from a term of
 service “for cause” (and subsequent eligibility for a second term). We found it confusing, internally
 inconsistent, and inconsistent with recognized definitions of a “for cause” release, in that the
 definition, as written, was so broad that it covered release and qualification for a second term for
 members who had performed satisfactory service, as well as those who had been released for
 unsatisfactory service or misconduct. We recommended that the rule be rewritten to make clear that
 a release for cause is defined as a release for wrongdoing, misconduct, or unsatisfactory service, and
 that it disqualifies the member from serving a second term. We further recommended that the rule
 identify the resignation of a member as a basis for release that can be considered in determining
 eligibility for subsequent service.




 April 1, 2008 – September 30, 2008                                                             19
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




April 1, 2008 – September 30, 2008                                  21
                                                                                       Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         27
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        15

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of     24
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      25
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      26
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        27
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             9
                   General disagrees




 April 1, 2008 – September 30, 2008                                                          23
Tables


II.             Audit List

                                                  April 1, 2008-September 30, 2008
       Report                                                               Dollars          Dollars       Funds Put To Better
                                       Report Name
       Number                                                              Questioned    Unsupported              Use
                                                                                        (Dollars in thousands)
        08-11    Agreed-Upon Procedures for Corporation for National            $2              $0                $24
                 and Community Service Grant Awarded to the
                 Catholic Network of Volunteer Service

        08-12    Agreed-Upon Procedures of Corporation for National            $22            $0                 $228
                 and Community Service Education Award Grants to
                 Boys and Girls Clubs of America

        08-16    Review of Bank Street College of Education's                   $0            $0                  $1
                 Justification for Compelling Personal Circumstances of
                 an AmeriCorps Member
        08-17    Agreed-Upon Procedures for Corporation for National           $20            $0                  $33
                 and Community Service Grants Awarded to the Local
                 Initiative Support Corporation
        08-18    OIG Study of Corporation for National and Community            $0            $0                  $0
                 Service's Federal Assistance Monitoring Tools

        08-19    Agreed-Upon Procedures for Corporation for National           $23            $4                  $48
                 And Community Service Grants Awarded To Equal
                 Justice Works

        08-20    Agreed-Upon Procedures of Corporation for National            $70            $0                  $83
                 and Community Service Education Award Program
                 Grants to Regis University-Colorado Campus
                 Compact
        08-21    Agreed-Upon Procedures of Corporation for National             $8            $0                 $394
                 and Community Service Education Award Program
                 Grants to Mississippi Department of Education

        08-22    Agreed-Upon Procedures of Corporation for National             $4            $2                  $57
                 and Community Service Grants Awarded to the Arab
                 Community Center for Economic and Social Services


        08-23    Status of the Corporation's Implementation of                  $0            $0                  $0
                 Homeland Security Presidential Directive/HSPD-12

                                          TOTAL                                $148 *         $6                 $868

      *The difference between the total of the column and $148 is due to rounding.




  24                                                                        April 1, 2008 – September 30, 2008
                                                                                         Tables


III.          Reports With Questioned Costs


                                                                          Federal Costs

                     Report Category                       Number Questioned         Unsupported
                                                                          (Dollars in thousands)
       A. Reports for which no management decision            16        $5,074                      $3,956
          had been made by the commencement of the
          reporting period

       B. Reports issued during the reporting period          7          $148                             $6

   C. Total Reports (A + B)                                   23        $5,222                      $3,961

   D. Reports for which a management decision                 12        $4,416                      $3,830
      was made during the reporting period

          I. Value of disallowed costs                                   $480                           $274

          II. Value of costs not disallowed                             $3,936                      $3,556

       E. Reports for which no management decision            11         $807 **                        $133 **
          had been made or for which the OIG is
          reviewing the proposed management
          decision at the end of the reporting period (C
          minus D) *

       F. Reports with questioned costs for which no          0            $0                             $0
          management decision or proposed
          management decision was made within six
          months of issuance
   *      Proposed Management Decisions under OIG             4          $659                           $127
          review (see Table VII)
   **     Minor Adjustments made to totals due to rounding.




  April 1, 2008 – September 30, 2008                                                               25
Tables


IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                     Report Category                    Number          Dollar Value
                                                                   (Dollars in thousands)
      A. Reports for which no management decision         11                $892
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period       8                 $868

      C. Total Reports (A+B)                              19               $1,760
      D. Reports for which a management decision          8                 $336
         was made during the reporting period

          i. Value of recommendations agreed to by                          $183
          management

          ii. Value of recommendations not agreed to                        $153
          by management

      E. Reports for which no management decision         11               $1,424
         had been made by the end of the reporting
         period or for which the OIG is reviewing the
         management decision at the end of the
         reporting period *

      F. Reports with recommendations that funds          0                  $0
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance
      *   Proposed Management Decisions under             4                 $557
          OIG review (See Table VII)




 26                                                           April 1, 2008 – September 30, 2008
                                                                                        Tables


V.        Summary Of Audits With Overdue Management Decisions



                                                                        Mgmt.     Status at End of
     Report                                  Federal Dollars           Decision   Reporting Period
     Number             Title                 Questioned                 Due         (09/30/08)
                                            (Dollars in thousands)


                                                       None

                        Total                        $0




VI.        Reports Described In Prior Semiannual Reports
           Without Final Action


      Report                                                                        Final
      Number                        Title                            Date Issued Action Due

       07-18   Agreed-Upon Procedure for Grants Awarded to             06/28/07   06/28/08
               the OneStar National Service Commission, Inc.


       07-21   Audit of Corporation for National and Community         09/10/07   09/10/08
               Service Grant Awarded to United States
               Veterans Iniative, Inc




 April 1, 2008 – September 30, 2008                                                           27
Tables


VII           Proposed Management Decisions Under OIG Review



                                                                                                          Status at End of
  Report                                                Federal Dollars         MD Due    Date PMD        Reporting Period
  Number                        Title                    Questioned              Date     Received           (09/30/08)
                                                       (Dollars in thousands)

              Audit of Corporation for National and
      07-21   Community Service Grant Awarded to             $502,774           3/10/08    09/24/08   The OIG is currently reviewing
              United States Veteran Initiative, Inc.                                                  the proposed management
                                                                                                      decision (PMD).

                                                                                                      The OIG has requested
              Agreed-Upon Procedures of Corporation
                                                                                                      additional information from the
              for National and Community Service
      08-04                                                   $41,984           5/21/08    09/22/08   Corporation to support its
              Education Award Grant Awarded to
                                                                                                      decision on members who
              United States Veterans Initiative, Inc
                                                                                                      were given partial education
                                                                                                      awards.
              Agreed-Upon Procedures Review of
              Corporation for National and Community
      08-15                                                   $57,798           9/10/08    09/29/08
              Service Grants Awarded to Montana                                                       The OIG is currently reviewing
              Office of Community Service                                                             the PMD.
              Agreed-Upon Procedures Review of
              Corporation for National and Community
      08-14                                                   $56,847           9/29/08    09/18/08
              Service Grants Awarded to                                                               The OIG is currently reviewing
              ServeMinnesota                                                                          the PMD.
                                Total                        $659,403




 28                                                                             April 1, 2008 – September 30, 2008
                                        Fiscal Year 2008
                                Performance Information
                   The section summarizes the Office of Inspector
                   General’s accomplishments and performance measures
                   in support of OIG strategic goals and provides a
                   comparison to previous reporting periods.




April 1, 2008 – September 30, 2008                              29
                                                      Performance Information


                        Quantitative Audit Performance Information

                                          2003      2004      2005      2006      2007      2008
Number of reports issued                   19        23        21        40        20         23

Number of reports issued linked to         5          6         3        12         7           7
improving Corporation management (OIG
Goal One)

Number of recommendations linked to        56        45        40        139       24         22
improving Corporation management (OIG
Goal One)

Number of reports issued linked to         19        22        18        30        16         16
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Number of recommendations linked to       140       139        142       179       164       194
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Total number of audit recommendations     140       139        169       316       182       216

Percent of recommendations accepted by    93%       99%       99%       100%      92%        93%
the Corporation


Strategic Goals

The Office of Inspector General operates independently from the Corporation and seeks to achieve a
separate, but related, set of strategic goals. The OIG’s strategic goals are designed to promote
economy, efficiency, and effectiveness, and to prevent and detect fraud, waste and abuse, and
mismanagement in Corporation programs and operations. The general purpose of these goals is to
improve the Corporation’s ability to meet its responsibilities and achieve its mission.

Goal One:     Ensure that OIG activities support the Corporation’s mission by emphasizing
examinations of critical programs and operations.

Goal Two: Communicate effectively with the Corporation Board of Directors, senior management and
staff, grantees and sub-grantees, the public, Congress, and other parties as appropriate.

Goal Three: Strengthen the OIG’s ability and readiness to have maximum impact on the most
significant issues facing the Corporation and its programs.




April 1, 2008 – September 30, 2008                                                         31
Performance Information


                        Investigations Performance Information
           Fiscal Year             FY 2004   FY 2005      FY 2006     FY 2007       FY 2008
  Investigative actions opened       42        57           58          62            41

  Investigative actions resolved     38        53            60          55              51
  and closed

  Average monthly caseload           28        37            38          44              38


  Investigative matters resolved     59        45            40          54              68
  without opening a separate
  investigative action

  Referrals for prosecution          8         20            12          16              8

  Investigative recoveries         $36,952   $234,691     $268,839    $838,569     $947,540

  Cost avoidance                   $5,106     $2,363       $74,586    $418,900      $81,731


  Administrative or management       8         24            20          35              29
  actions taken




 32                                                 April 1, 2008 – September 30, 2008
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
